U.S. Department of Justice
Office of the Inspector General




A Review of the Federal Bureau
of Investigation’s Initial Response
to Representative Mark Foley’s
E-mails to a Former Page




                    DRAFT



                                  Office of the Inspector General
                                                    January 2007
I. Introduction

      This report describes the Office of the Inspector General’s (OIG)
review of the Federal Bureau of Investigation’s (FBI) response when it
received e-mails sent by Representative Mark Foley to a former page with
the United States House of Representatives. The e-mails contained
comments from Foley to the former page, and comments from the page to
a House employee to whom the page had forwarded Foley’s e-mails.

      Melanie Sloan, the Executive Director of a group called Citizens for
Responsibility and Ethics in Washington (CREW), believed that the e-mails
warranted investigation and in July 2006 forwarded the e-mails to the
FBI’s Washington Field Office (WFO), Northern Virginia Resident Agency
(NVRA). An FBI agent in that office who reviewed the e-mails decided that
the e-mails did not warrant any investigative action. The FBI did not
inform CREW of its decision or take any additional action with respect to
the e-mails.

      In September 2006, these e-mails and other instant messages from
Foley to other former congressional pages became public. Foley resigned
from Congress on September 29.

       On October 1, the FBI announced that it was opening a “preliminary
investigation” into Foley’s e-mails with House pages.1 The following day,
Melanie Sloan from CREW informed the OIG of her submission of several
of Foley’s e-mails to the FBI in July, and she questioned why the FBI had
not investigated them at the time.

      Sloan subsequently sent a letter to the OIG complaining about the
FBI’s public statements in response to public reports about the e-mails
she had provided to the FBI. Several media reports reported that the FBI
and the Department of Justice (Department) had said the e-mail messages
CREW provided were “heavily redacted” and that CREW had refused to
provide more information when asked by the FBI, factors that the news
stories suggested contributed to the FBI’s decision not to investigate the
e-mails in July.

II. OIG Review

      The OIG conducted this review to examine the FBI’s actions when it
received the Foley e-mails from CREW in July 2006. As part of this
review, we interviewed Sloan, the Executive Director of CREW; the FBI

       1  See, e.g., Charles Babington and Jonathan Weisman, FBI to Examine Foley’s
E-mails, The Washington Post, Oct. 2, 2006; John Heilprin, FBI Examining Foley’s E-mails
to Teens, Associated Press, Oct. 2, 2006.
Special Agent and the Supervisory Special Agents at the NVRA who
reviewed the e-mails in July 2006 and made the decision not to investigate
them; a WFO Assistant Special Agent in Charge who reviewed the e-mails
in October 2006; a supervising Assistant United States Attorney from the
United States Attorney’s Office for the District of Columbia who reviewed
the e-mails in October 2006; and three FBI media officials.

      We also reviewed various documents, including the e-mails that
CREW provided to the FBI in July 2006, a draft chronology created by the
FBI’s WFO in October 2006 describing its response to the e-mails it
received from CREW, e-mails between FBI employees regarding Foley’s
resignation and inquiries from the media, newspaper articles concerning
the information that CREW provided to the FBI, and documents regarding
the Department and the FBI’s initiatives against the online sexual
exploitation of children.

       Our review focused on two issues. First, we examined what the FBI
did in response to the information it received from CREW in July 2006.
Second, we reviewed the accuracy of the Department and the FBI’s
statements to the media in October 2006 regarding these e-mails.2 This
report describes the results of our review.

III. Factual Chronology

       A. The E-mails from CREW

       Melanie Sloan, the Executive Director of CREW, told the OIG that on
July 19, 2006, a CREW staff member received a set of e-mails that
allegedly were sent by Foley to a former House page and then forwarded by
the former page to an employee of the House of Representatives. Sloan
said she did not know the age of the former page but understood that all
pages were minors.

      Sloan said that a third person affiliated with an interest group other
than CREW had received the e-mails from a congressional staffer and had
provided the e-mails to CREW. Sloan stated that at the time she received
the e-mails she did not know the identity of the congressional staffer who
provided the e-mails to the interest group.

       The material that CREW received consisted of five e-mails from Foley
to the former page and three e-mails between the page and an employee
with the House of Representatives. The first of the five e-mails sent by

       2  Our review does not examine the FBI’s current investigation into the Foley
e-mails, which the FBI began on October 1, 2006.



                                            2
Foley indicates in the address header that it was sent on July 29, 2005, at
11:00 a.m. The remaining four e-mails from Foley do not indicate when
they were sent. The body of these e-mails from Foley to the former page
read, in full, as follows:

              1) do I have the right email
              Mark Foley

              2) glad your home safe and sound…we dont go back into
              session until Sept 5,,,,si its a nice long break….I am back in
              Florida now…its nice here..been raining today..it sounds like
              you will have some fun over the next few weeks…how old are
              you now?...

              3) I am in North Carolina..and it was 100 in New
              Orleans…wow that’s really hot…well do you miss DC…Its
              raining here but 68 degrees so who can argue..did you have
              fun at your conference…what do you want for your birthday
              coming up…what stuff do you like to do

              4) I just emailed [name of page]…hes such a nice guy….acts
              much older than his age…and hes in really great shape….i am
              just finished riding my bike on a 25 mile journey now heading
              to the gym…whats school like for you this year?

              5) how are you weathering the hurricane..are you safe..send
              me an email pic of you as well

      On the face of the documents that were provided to CREW and
subsequently forwarded to the FBI, it appears that the five e-mails from
Foley to the former page were forwarded to another person, other than the
House employee mentioned above, whose name is redacted. The former
page’s full name is included in all five e-mails.3

      A second set of three e-mails provided to CREW and subsequently
forwarded to the FBI are the e-mails between the former page and the
House employee who had an e-mail address indicating she worked for the
House of Representatives.




       3  These e-mails, with names and e-mail addresses of the page and the House
employee, and other information that is irrelevant, redacted by the OIG, are attached to
this report.


                                            3
      The first e-mail in this set is dated August 30, 2005, and is from the
former page to the House employee. The e-mail starts as follows:

            Yeah. I have his personal e-mail.

            What happened was I gave certain people Thank-you cards,
            you know? I gave Foley one because he was a really nice guy
            to me and all. Then, he asked me to write my e-mail on the
            back of his. So I was like, “sure!” because of course I had no
            suspicions.

       In the same e-mail, the former page gives the full name of the person
that Foley describes in his e-mail as acting “much older than his age” and
being “in really great shape.” The former page describes this person as
“just another page he [Foley] liked.” The former page goes on to describe
some of the e-mails from Foley and his reaction, including the following:

            And this is the one about send him a pic:

            “how are you weathering the hurricane…are you safe….send
            me an email pic of you as well…”

            Sick sick sick sick sick sick sick sick sick sick sick sick sick. .

      The former page also mentions that another former House page, who
he identifies by her first name, had previously told him “that there was a
congressman that did hit on pages. She didn’t know his name. . .”

       In this e-mail, the former page also requests that the House
employee “mention this to Rodney [Representative Rodney Alexander] so
he is aware. I wonder what he would do about it. And if he wants to
e-mail me or call me, you can give him my info if he doesn’t already have
it.”

      The former page next comments in the e-mail that it is late and “I
have freaked out enough tonight, lol.” The former page adds, “I still
haven’t emailed him back, and I don’t think I will for a while, if ever. What
do you think about it all?”

      In the second e-mail, dated August 31, 2005, the House employee
sent the following one-sentence reply to the former page: “If you can,
forward me the emails.”




                                      4
       In the third e-mail, also dated August 31, 2005, the former page
replies to the House employee:

            Ok. I am forwarding them now.

            Maybe it is just me being paranoid, but seriously. This
            freaked me out.

            But do tell me what you think about it all. I have one friend
            thinking I am being paranoid and the other saying that she
            thinks it is weird that he even asked for my e-mail, much
            more what he said.

      B. CREW Provides the E-mails to the FBI

      Sloan told the OIG that based on her prior experience as an
Assistant United States Attorney in the District of Columbia who had
prosecuted some sex crimes, she concluded that the e-mails contained
information that warranted investigation by the FBI. Sloan noted to the
OIG that the former page who received Foley’s e-mails was clearly upset
and distressed about the messages.

       On July 21, 2006, the same day that Sloan received the e-mails from
a member of her staff, and two days after Sloan said her staff member first
received the e-mails, Sloan contacted an FBI special agent assigned to the
Public Corruption Squad at the FBI’s Washington Field Office (WFO), who
was stationed in WFO’s Northern Virginia Resident Agency (NVRA). Part of
the Special Agent’s responsibilities was to serve as a liaison with federal
watchdog groups and to encourage these groups to report to the FBI any
information about potential criminal activity that they received. In 2003
or 2004, the Special Agent had called Sloan and encouraged her to report
to the Special Agent any suspicious activity that CREW might learn about.
The Special Agent and Sloan had not spoken again until the call from
Sloan in July 2006 to pass along the Foley e-mails.

       According to the Special Agent, when Sloan called she said she had
“disturbing e-mails concerning a Congressman soliciting pages.” Sloan
told the Special Agent that she thought the e-mails might involve criminal
activity because all pages are minors, and Sloan wanted to “get the e-mails
to law enforcement.” The Special Agent said she requested that Sloan
send her the e-mails.

       Sloan sent the e-mails to the Special Agent, first by facsimile and
then in a PDF document sent to the Special Agent’s e-mail account. After
receiving the e-mails, the Special Agent said she called Sloan back to



                                     5
confirm that the e-mails were from Congressman Foley. The Special Agent
told the OIG that she questioned Sloan regarding the portions of the
e-mails that had been redacted or underlined, and Sloan told her that the
redactions and underlines were present when Sloan had received the
e-mails, and that the FBI was receiving the e-mails in the same condition
that CREW received them.4

      The Special Agent told the OIG that she believes, but is not certain,
that she also asked Sloan to reveal who had forwarded the e-mails to
CREW, and that Sloan declined to do so. However, the Special Agent said
that she cannot be certain that her recollection was accurate regarding
this point, because she may be confusing her recollection with an
unrelated case.5

      The Special Agent said she also asked Sloan for information about
the House employee whose name was on the documents because the
former page had forwarded the Foley e-mails to that employee. The
Special Agent said that Sloan explained that the House employee was
another page who was a friend of the former page who received the Foley
e-mails.

      In contrast, Sloan told the OIG that she recalled that the Special
Agent called her after receiving the e-mails and the only question that the
Special Agent asked was whether the e-mails were between Congressman
Foley and a page. Sloan said the Special Agent did not ask her to reveal
who had provided the e-mails to CREW, did not ask any follow-up
questions about the House employee whose name was in the e-mails, and
did not ask any questions about the redactions. Sloan said that she did
not decline to answer any questions that the Special Agent asked her.

       Both the Special Agent and Sloan said that this conversation was
their last communication with each other about the e-mails. Sloan said
she did not speak with anyone else at the FBI regarding the e-mails and
Congressman Foley.



       4  The e-mails appeared to have been forwarded to another person or persons in
addition to the House employee. While the full name of the House employee was in the
e-mails, the name and e-mail address of the additional persons to whom the e-mails had
been forwarded were redacted. The e-mails also contained some handwritten underlines
and brackets.

        5 In a written draft chronology of events prepared in October 2006 by another

FBI employee but which the Special Agent reviewed and approved, the Special Agent’s
recollection is described as follows: “[The Special Agent] has a vague recollection of
asking Ms. Sloan who she got the emails from and Ms. Sloan did not want to reveal her
source.”


                                           6
        Sloan said that she reported the e-mails to the FBI because she
wanted to “get the e-mails to law enforcement” and she believed that the
FBI was best situated to investigate the matter. Sloan told the OIG that
she thought the FBI would interview the former page to determine if any
follow-up was needed. She said she did not believe it was appropriate for
her to follow up on the matter by trying to talk to the former page herself.

      C. Review by the FBI’s Public Corruption Squad

      The FBI Special Agent who received the e-mails from Sloan said that
she read the e-mails and concluded that the former page appeared “to be
wierded out by it.” That same day, the Special Agent showed the e-mails
to her supervisor, the supervisory special agent (SSA) in charge of the
Public Corruption Squad at the NVRA. The Public Corruption SSA told the
OIG he read the e-mails and thought “What a freak” about the
Congressman. However, he concluded they did not fall within the
jurisdiction of the Public Corruption Squad because they did not involve
any allegations of public corruption, such as bribery or gratuities.

       The Public Corruption SSA directed the Special Agent to give the
e-mails to the supervisor of the NVRA Crimes Against Children and Adult
Obscenity Squad (Crimes Against Children Squad). The Special Agent said
that because it was already around 6 p.m. on a Friday, she waited until
the following Monday, July 24, 2006, to leave a voicemail for the SSA of
the Crimes Against Children Squad.

      D. Review by the Crimes Against Children and Adult Obscenity
         Squad

       The NVRA Crimes Against Children Squad investigates adult
obscenity crimes and non-Internet crimes against children, including child
prostitution, child pornography, child sexual exploitation cases that are
not Internet based, and international parental kidnappings. The Crimes
Against Children Squad SSA has been the supervisor of this squad since
September 18, 2005. She said that prior to this assignment, she had no
previous assignments that related to sex crimes, other than her work as a
police officer before joining the FBI.

      The Crimes Against Children Squad SSA was on annual leave on
Monday, July 24, 2006. She received a copy of the Foley e-mails from the
Special Agent when she returned to the office the next day. The SSA said
she understood from her communications with the Special Agent that this
matter involved a House page receiving e-mail messages from a
Congressman and that the page was probably a juvenile. The SSA told the
OIG that after reading the e-mail messages, it “was clear to me that there
was no criminal violation” on the face of the e-mails. She acknowledged


                                      7
that the e-mails were “inappropriate” if they were sent from an adult to a
child.

      The Crimes Against Children Squad SSA concluded that, because
the e-mail messages were sent via computer, the appropriate squad to
review the messages was the Cyber Crimes Squad in NVRA.

      E. Review by the Cyber Crimes Squad

            1. Background of Cyber Crimes Squad

       The Cyber Crimes Squad investigates Internet fraud, theft of
intellectual property, and online sexual exploitation of children.

       The Cyber Crimes Squad is supervised by an SSA. That SSA said
that, generally, the online sexual exploitation of children matters her
squad investigates are cases involving the distribution, production and
receipt of online child pornography or “traveler cases” in which suspects
entice children through the Internet to cross state lines to engage in sexual
activity. The Cyber Crimes Squad SSA said that her squad’s cases
generally do not come from referrals, either from the public or from public
interest groups. The cases generally are referred by local law enforcement
agencies or are generated by FBI agents working undercover in an online
capacity. She said that the squad’s traveler cases are almost exclusively
self-initiated by agents posing as children on the Internet.

      The Cyber Crimes Squad SSA said that she has ten agents assigned
to her squad, but only two agents work full time and one agent works part
time on investigations involving the online sexual exploitation of children.
The remaining agents work on Internet fraud and theft of intellectual
property cases.

       When the Cyber Crimes Squad SSA first joined the squad, the
squad’s highest priority was intellectual property rights. She said that
after the announcement of the Project Safe Childhood Initiative in March
or April of 2006, sexual exploitation of children over the Internet became
her squad’s number one priority. However, because of the emotionally
difficult nature of sexual exploitation cases, agents on the Cyber Crimes
Squad must volunteer to work on these types of cases and can only be
assigned the cases after undergoing psychological testing. Thus, the
Cyber Crimes Squad SSA said she does not have any other agents
available to work on these cases. However, as explained in the following
section, the amount of available resources did not influence the Cyber
Crimes SSA’s decision on whether or not to conduct additional follow-up
on the e-mails that the FBI received from CREW.



                                     8
      The Cyber Crimes Squad SSA said that her squad has an
approximate backlog of 30 unaddressed sexual exploitation complaints,
which may or may not merit investigation but are not yet being pursued
because she does not have the resources to address them. According to
the Cyber Crimes Squad SSA, the majority of the unaddressed complaints
involve allegations of possession of child pornography.

              2. Review of the E-mails by the Cyber Crimes Squad
                 Supervisor

       On July 25, 2006, the Crimes Against Children Squad SSA
hand-delivered the e-mails to the Cyber Crimes Squad SSA and told the
Cyber Crimes Squad SSA that it was her understanding that the e-mail
messages were between a Congressman and a juvenile. After reviewing the
e-mails, they briefly discussed their belief that there was no criminal
activity in the e-mails. They said they also discussed the possibility of
assuming the former page’s identity on the computer and engaging the
Congressman in a conversation. However, they both concluded that
pursuing an assumed identity investigation was not viable because the
e-mails had been written in 2005.

       The Cyber Crimes Squad SSA told the OIG that while she found the
messages “odd,” she did not see any evidence of criminal wrongdoing. She
said that she concluded, after reading the e-mails, that no further
investigation was warranted. She said that in determining that no
investigation was warranted, she relied in part on the fact that the age of
consent in the District of Columbia is 16. She said that she was uncertain
how old the former page was, but said she had a recollection that the
Crimes Against Children Squad SSA had stated that the former page was
16 or 17 years old.6 The Cyber Crimes Squad SSA stated that although
the former page appeared to be bothered by the e-mails, as evidenced by
his repeated use of the word “sick,” she believed that fact did not provide a
basis for any further investigation.

      The Cyber Crimes Squad SSA also told the OIG that, “We only open
a case if there is a reasonable indication that criminal activity has
occurred or will occur.” She said that “There was nothing in this [e-mails]
that warranted taking any action.”

      The OIG asked her whether the language in the e-mails could have
been interpreted as “grooming” behavior that is employed by sexual
predators. Typically, in this scenario, predatory behavior begins with the

       6
         The Crimes Against Children SSA told the OIG that she did not know how old
the former page was, although it was her understanding at the time that the former page
was a juvenile.


                                           9
suspect using inappropriate language and then later builds up to
inappropriate sexual communications and conduct. The Cyber Crimes
Squad SSA responded that she did not view the content of the e-mails
alone as constituting grooming behavior. She also told the OIG that she
could not go forward with an investigation unless the e-mails contained
explicitly sexual language. When asked to give an example of the type of
language that would be sufficient to justify opening an investigation, she
suggested language such as, “How big is your penis?” The SSA also said
an enticement case had to be at a “substantial stage” before prosecutors
would take the case for prosecution, such as evidence that plane or bus
tickets had been purchased to enable the child to travel.

       The OIG asked the SSA if she would have viewed the matter any
differently if the e-mail exchange had been between another authority
figure and a juvenile, such as between a coach and a student. The SSA
said no.

       When asked if there was anything in the e-mails that warranted
notifying anyone outside the FBI of the e-mails, including anyone in a
position of authority over the page program, the SSA also replied, “No.”
She said she did not consider referring the e-mails to the local police
because the local police are overburdened and there is only one person in
the District of Columbia who handles these types of cases.

       The SSA also stated that these e-mails were “not the job of the FBI.
This is a parental job.” The SSA stated that the FBI does not have the
authority to investigate absent an indication that a crime has or may be
occurring. The SSA said that for this reason, the FBI engages in outreach
to raise parental awareness. She said that the FBI has to have a
reasonable basis to believe a crime has been committed or will be
committed before investigating because “we’re the big bad government.”
The SSA stated that to do otherwise would be a misuse of FBI authority.
She said, “In hindsight, I wouldn’t have changed my decision.” She added,
“We are not the ethics police.”

      The OIG asked the SSA if her decision to not open the investigation
was influenced in any way by the fact that the suspect was a
Congressman. She replied, “No.” She also said that her decision was not
influenced by the lack of any information about the former page’s identity.
She said that she believed that the FBI had enough information from the
e-mails provided by CREW to find the former page if the FBI had wanted to
locate him.

      The SSA said that other than a brief discussion with the Crimes
Against Children Squad SSA, she did not discuss her decision to decline to
open an investigation with anyone else at the FBI at the time.


                                    10
       After deciding no further investigation was warranted, the Cyber
Crimes Squad SSA placed the e-mail messages in her in-box around July
25, 2006. She said it was her intention to place the e-mails in a “zero” file,
which is the name of an FBI file that is created to store information
received by the FBI that it believes does not warrant further action.
However, the e-mail messages remained in the SSA’s in-box and no further
action was taken until she was contacted by her supervisor, a WFO
Assistant Special Agent in Charge (the ASAC), on September 29, 2006,
after Foley announced his resignation.

      F. Review of the Cyber Crimes Squad SSA's Decision

            1. SAC Review

      The first information the ASAC received concerning any allegations
of inappropriate communications between Congressman Foley and House
pages was on Friday, September 29, 2006, the day Foley resigned. The
ASAC received a telephone call that day from the FBI WFO media
representative asking the ASAC if he knew anything about an FBI
investigation of Congressman Foley. The ASAC called the Crimes Against
Children Squad SSA to find out if the FBI had received anything regarding
Foley, and that SSA directed the ASAC to the Cyber Crimes Squad SSA.
The ASAC spoke to the Cyber Crimes Squad SSA, who told him that in
July 2006 the FBI had received e-mails sent by Foley to a former page.
She reported to the ASAC that she had determined that there was nothing
sexually explicit in the e-mails and that the matter did not warrant a
criminal investigation. She also told the ASAC that she had put the
e-mails in her in-box with the intention to place them in a zero file, but
that the e-mails were still in her in-box.

       The ASAC also asked the Cyber Crimes Squad SSA to create a
chronology of events outlining what information the FBI received from
CREW and what the FBI did with this information. The SSA prepared a
draft chronology and incorporated the comments of the Special Agent who
had received the e-mails from CREW, the Public Corruption Squad SSA,
and the Crimes Against Children SSA. In this draft chronology, the Cyber
Crimes Squad SSA provided the following rationale for declining to open
an investigation:

            [The Cyber Crimes SSA] reviewed the emails and discussed
            the content with [the Crimes Against Children SSA]. Based on
            the emails, [the Cyber Crimes SSA] and [the Crimes Against
            Children SSA] agreed there was no evidence of criminal
            wrongdoing. [The Cyber Crimes SSA] made this determination
            based on the content of the emails, her experience in IINI


                                     11
              [Innocent Images National Initiative] matters, and her legal
              background.7 Specifically, for the following reasons:

              1. The emails were not sexually explicit.
              2. The emails did not discuss illegal or legal sexual activity.
              3. The emails did not contain language inducing or enticing
              an individual, regardless of age, to engage in sexual activity.
              In fact, the emails contained no language of persuasion or
              enticement to engage in any type of activity, criminal or
              otherwise.
              4. The emails contained no discussion of any past crime or
              potential future crime. No criminal acts were discussed.
              5. Emailing a minor is not a crime.
              6. Based on the facts provided, there was no reasonable
              suspicion any criminal activity had taken place. Thus, the
              FBI was not warranted in conducting further investigation and
              there was no basis to conduct an investigation, especially in
              light of the fact Ms. Sloan, CREW, refused to provide the
              identity of her source.
              7. The age of consent in the District of Columbia is 16.

[Emphasis in original].

       The ASAC told the OIG that upon his review of the e-mails and this
draft chronology, he agreed with the Cyber Crimes Squad SSA’s decision to
not open a criminal investigation. However, he said that, in accordance
with FBI policy, the SSA should have promptly indexed the relevant
information from the e-mails into the FBI’s Automated Case Support (ACS)
computer data system when the e-mails were received in July.

      The ASAC said he told the Cyber Crimes Squad SSA that even
though she had declined to open an investigation when she received the
e-mails in July, she should have promptly had the relevant information
from the e-mails indexed so that it would be entered into ACS.

      The ASAC said that he does not have any personal experience in
investigating cases involving sexual exploitation of children, other than
what he has learned by supervising the squad that conducts these cases.
He said that he relies on the Cyber Crimes Squad SSA’s expertise in these
matters.

      The ASAC told the OIG that he believed the FBI would have a moral
obligation to notify someone if that person was at risk of being a victim,

       7   Before joining the FBI, the Cyber Crimes Squad SSA was a lawyer in private
practice, primarily handling civil litigation.


                                           12
even if the FBI was not going to conduct an investigation. However, he
said that it is not the FBI’s policy to make such a notification without
proof. He said that the FBI did not have anything in the e-mails it received
from CREW that provided adequate grounds to provide notification to
anyone involved with the page program.

      The ASAC said that several officials from the FBI, the District of
Columbia United States Attorney’s Office (D.C. USAO), and the Criminal
Division of the Department of Justice met during the week following
Foley’s resignation and decided to open an investigation into Foley’s
conduct in light of the sexually explicit instant messages that had been
revealed by ABC News in September 2006. The ASAC noted that no one at
that meeting expressed any disagreement with the Cyber Crimes Squad
SSA's previous decision not to open a criminal investigation based on the
e-mails received from CREW, but he added this meeting was focused on
the instant messages and not on the e-mails.

            2. Assessment of Decision by Assistant United States
               Attorney

       Patricia Stewart is the Deputy Chief of the Major Crimes Section of
the Criminal Division of the D.C. USAO, the section that investigates and
prosecutes federal crimes involving the online sexual exploitation of
children. Stewart did not formally review or supervise the FBI’s decision
on whether to pursue an investigation into the e-mails provided by CREW.
However, D.C. USAO can be called upon to provide advice to the WFO
Cyber Crimes Squad about whether an investigative lead is worth
pursuing. The Cyber Crimes Squad SSA stated that if she had had “an
ounce of question” in July 2006 about her decision to place the e-mails in
a zero file without any further follow-up, she would have run her decision
through the D.C. USAO for guidance. The SSA also said that after Foley
resigned, she discussed the e-mails with Stewart, who endorsed the SSA’s
July 2006 decision that no further follow-up by the FBI was necessary at
that time.

       Stewart said that the majority of the federal Internet exploitation
cases handled by the D.C. USAO Major Crimes Section are brought to her
office by the Washington, D.C., Metropolitan Police Department Youth
Division. She said that most of the online child sexual exploitation cases
her office prosecutes are initiated by undercover police officers posing as
children in Internet communications.

      Stewart said that prior to the resignation of Congressman Foley, she
did not have any knowledge of the e-mails between Foley and the former
page that the FBI had received in July 2006. Stewart said that had the
FBI brought the e-mails to her in July 2006, she would have reviewed the


                                    13
e-mails in light of 18 U.S.C. § 2422(b), which makes it a crime to entice or
attempt to entice a minor to engage in illicit sexual conduct. She noted
that illicit sexual conduct is defined by state law, and that if someone was
trying to entice anyone age 16 or older in the District of Columbia, it would
not be illegal. Stewart said she could not speak to the laws in other states
where some of the e-mails may have been sent or received.

      Stewart said that the e-mails sent to the FBI by CREW indicated
that someone was being made uncomfortable but, in her opinion, the
Cyber Crimes Squad SSA appropriately decided that a follow-up call to the
former page was not warranted. However, Stewart noted that the FBI
could have conducted an investigation without the D.C. USAO’s
involvement, although her office would not have assisted at that point
without more evidence. Stewart also said that in her opinion the e-mails
the FBI received in July did not rise to a level where notification to some
other authority would be warranted. Stewart said that the instant
messages revealed by ABC in September 2006 were sexually explicit
communications and provided enough justification for both the FBI and
the D.C. USAO to open an investigation, which they have since done.

IV. OIG Assessment of the FBI’s Actions

      In this section, we examine the FBI’s decision not to conduct any
follow-up regarding the e-mails it received from CREW in July 2006.
Because this decision must be viewed in the framework of the law that
criminalizes sexual solicitations of minors via the Internet, we first provide
an overview of the relevant provision of the federal criminal code governing
that conduct.

      A. Overview of Relevant Provision of the Federal Criminal Code

      Federal law governing the sexual solicitation of a minor via the
Internet provides:

            Whoever, using the mail or any facility or means of interstate
            or foreign commerce, or within the special maritime and
            territorial jurisdiction of the United States knowingly
            persuades, induces, entices or coerces any individual who has
            not attained the age of 18 years, to engage in prostitution or
            any sexual activity for which any person can be charged with




                                     14
               a criminal offense, or attempts to do so, shall be fined under
               this title and imprisoned not less than ten years or for life.

See 18 U.S.C. § 2422(b).8

       The criminal code in the state or states where the conduct occurred
would determine whether the sexual activity is one for which a subject
could be charged with a criminal offense. Many states set the age at
which a minor can consent to engage in sexual activity with an adult at
less than 18 years old. Thus, it would not be illegal to solicit a person
under 18 to engage in consensual sexual activity if that person were above
the age of consent in the state where the conduct was occurring.

      From the information on the face of the e-mails provided to the FBI
by CREW, it appears that they may have been sent either to or from
Florida, North Carolina, Washington, D.C., Maryland, Virginia, Louisiana,
Mississippi, or Alabama. First, Foley mentions in one e-mail that he is
“back in Florida now” and in another e-mail that “I am in North Carolina.”
Second, it is possible that Foley may have sent some of the e-mails either
from Washington, D.C., where he had an office, or from his residence in
the Washington, D.C., metropolitan area, which includes the states of
Maryland and Virginia. Third, Foley tells the former page in one e-mail
that he is “glad your home safe and sound” and in a later e-mail asks “how
are you weathering the hurricane.” The first e-mail Foley sent was dated
July 29, 2005, and the former page forwarded the e-mails to the House
employee on August 31, 2005. Because Hurricane Katrina occurred
during that time period, it appears possible that the former page resided in
Louisiana, Mississippi, or Alabama, the states most affected by Hurricane
Katrina. The age of consent in those states ranges from 16 to 18 years
old.9
       8  On July 27, 2006, the penalties were increased from “not less than 5 years and
not more than 30 years” to “not less than 10 years or for life”. See The Adam Walsh Child
Protection and Safety Act of 2006, Pub. L. No. 109-248 (2006).

       9   In fact, the former page was 16 years old at the time of the e-mail exchange with
Foley. Three of the eight states from which the communications potentially were sent or
received would have criminalized sexual contact between a 16 year old and Foley. See Fl.
Stat. § 794.06 (providing that it is a second degree felony for a person 24 years of age or
older to engage in sexual activity with a person 16 or 17 years of age); La. R.S. Ann.
§ 14.80 (felony carnal knowledge of a juvenile is committed when a person who is 19
years of age or older engages in consensual sex with a person older than 13 and younger
than 17 when the victim is not the spouse of the offender); Va. Stat. § 18.2-371 (providing
that it is a misdemeanor offense for an adult to engage in consensual sexual intercourse
with a child aged 15 to 17 to whom the adult is not married). The remaining states
established the age at which a person can legally consent to sexual activity with an adult
at age 16 or lower. See Code of Ala. § 13A-6-70 (age of consent is 16 years old); 22 D.C.
Code §§ 3008, 3009 (age of consent is 16 years old); Miss. Code Ann. § 97-3-65 (age of
consent is 16 years old); N.C. Gen. Stat. § 14-27.7A (age of consent is 16 years old).


                                            15
      B. OIG Assessment of the FBI’s Actions

      Upon receipt of the e-mails, the FBI Special Agent and the Public
Corruption SSA with whom she spoke acted quickly and appropriately in
forwarding the information to the FBI’s Crimes Against Children Squad.
In turn, the SSA on that squad quickly forwarded the information to the
Cyber Crimes Squad SSA, who she believed was the appropriate person to
evaluate the information contained in the e-mails.

      The Cyber Crimes Squad SSA made the decision not to open a
criminal investigation. She said that she did not find anything in the
e-mails that provided “a reasonable indication that criminal activity has
occurred or will occur.” The SSA also told the OIG she would not
investigate any e-mail conversations between adults and minors unless
the e-mails contained sexually explicit language.

      While the SSA’s squad has a large backlog of work, she said this did
not influence her decision not to investigate the e-mails. Rather, she
stated that she believed there was nothing criminal in the e-mails to
investigate.

       After Foley resigned and the issue of his behavior became public, the
WFO ASAC who supervised the Cyber Crimes Squad told the OIG that he
agreed with the SSA’s decision not to investigate the e-mails or not to
make any referral of the e-mails to the House authorities with
responsibility for the page program. AUSA Stewart also agreed after the
fact that no further investigation of the e-mails had been warranted.

       It is important to note that we found no indication that the Cyber
Crimes Squad SSA’s decision to decline to investigate was influenced in
any way by the fact that Foley was a member of Congress. Rather, the
SSA said she relied on the fact that the e-mails lacked evidence of criminal
activity.

      Based on our review, we believe that the SSA’s decision not to
investigate the matter further did not constitute misconduct, and fell
within the range of discretion that she was afforded in her position as an
FBI supervisor.

       However, notwithstanding the FBI supervisor and AUSA’s opinions
about actions they would have advised at the time, we believe that the
e-mails provided enough troubling indications on their face, particularly
given the position of trust and authority that Foley held with respect to
House pages, that a better practice for the FBI would have been to take at
least some follow-up steps with regard to the e-mails. Such action could
have easily included a brief preliminary inquiry, with an interview of the


                                    16
former page. Alternatively, if the FBI did not think that such an interview
was warranted, the FBI should have considered notifying the House
authorities in charge of the page program about the concerns expressed by
the former page. At the least, we believe the FBI should have notified
CREW, the complainant in this case, that the FBI had declined to open an
investigation. At the time, CREW was relying on the FBI to pursue the
matter and as a result had not notified anyone else about the e-mails.

       We recognize that our assessment is made after-the-fact, when
explicit instant messages and information about Foley’s behavior have
surfaced. However, given Foley’s position of trust and authority in relation
to the pages, the concern expressed by the page, and the troubling nature
of the e-mails, we believe taking some action would have been the better
course of action.

       In making this assessment, we note that Foley’s language in the
e-mails fell within the type of behavior that the FBI warns against in its
Parent’s Guide to Internet Safety.10 Foley engaged in conversations that,
at a minimum, could be described as unusual between an adult in a
position of authority and a juvenile. The former page clearly was troubled
by the e-mails, describing them as “sick,” and stating that the e-mails
“freaked him out.” It also was apparent from the e-mails that Foley was
engaging in a similar pattern of communication with another House page.

       Had the FBI taken the initiative, it could have easily pursued some
limited investigative steps. The e-mails contained the full name and e-mail
addresses of the former page who received the e-mails and the House
employee to whom he sent the e-mails. In addition, the FBI had the full
name of another page that Foley said he was e-mailing and that Foley

        10 As part of the FBI’s Innocent Images National Initiative (IINI), which the FBI

launched in 1995 to target child pornography and online child enticement, the FBI
published A Parent’s Guide to Internet Safety (Parent’s Guide), which is available on the
FBI’s website. The Guide warns parents that while some offenders may use sexually
explicit solicitations, other individuals who attempt to sexually exploit children through
the use of the Internet begin by using more subtle tactics. As the Parent’s Guide
describes:

               Some of these individuals gradually seduce their targets through the use of
               attention, affection, kindness, and even gifts. These individuals are often
               willing to devote considerable amounts of time, money, and energy in this
               process. They listen to and empathize with the problems of children. They
               will be aware of the latest music, hobbies, and interests of children. These
               individuals attempt to gradually lower children’s inhibitions by slowly
               introducing sexual context and content into their conversations.

The Guide also warns that “[a]s part of the seduction process, it is common for offenders
to send letters, photographs, and all manner of gifts to their potential victims.”



                                            17
allegedly “liked.” The Cyber Crimes Squad SSA acknowledged to the OIG
that there was enough information in the original material she received to
allow her to locate the former page who received the e-mails.

       However, the Cyber Crimes Squad SSA stated in her draft
chronology of events that her decision to decline to investigate was
justified “especially in light of the fact the source of the e-mails was not
identified.” Yet, Sloan told the OIG that she was never asked to identify
the source who forwarded the e-mails to CREW. Moreover, that
information was not critical, because the former page who originally
received the e-mails was identified.

       In addition, even if the FBI did not believe any interviews were
warranted based upon the e-mails alone, we believe the FBI should have
considered taking some steps to ensure that any minors in the
Congressional page program were not at risk of predatory behavior by
Foley. The FBI could have notified the House authorities who ran the page
program about the e-mails as well as the FBI’s decision not to investigate
the matter. At the least, it could have informed CREW that the FBI did not
intend to investigate the matter, so that CREW could take whatever steps
it deemed appropriate.11

      Finally, as the WFO ASAC noted, once the Cyber Crimes Squad SSA
declined to investigate the e-mails, she should have entered the
information into ACS. This type of data entry is particularly important
regarding potential allegations of sexual activity with minors because
patterns of inappropriate contact with minors may be indicative of illegal
conduct.

       In sum, we believe that the FBI’s decision to decline to investigate
this matter was not misconduct. Yet, we believe that the e-mails should
have raised enough concerns to warrant some action. At the least, the FBI
should have ensured that supervisors of the House page program were
aware of these e-mails, or informed the complainant that it was not going
to investigate the e-mails and the complainant could therefore make such
a notification. Finally, the FBI should have uploaded the information into
its ACS computer system.

        11 We also note that, in May 2006, the Department initiated Project Safe

Childhood, a program designed to protect children from sexual abuse and exploitation on
the Internet. The project is led by the 94 United States Attorneys and includes the FBI.
In addressing a Project Safe Childhood conference in December 2006, the Attorney
General noted the critical role that citizens play in this initiative by notifying law
enforcement of any suspicious behavior. He stated that “[w]e must therefore train
ourselves so that no lead will ever cross the threshold of a U.S. Attorney’s Office, local
police precinct or advocacy center without some kind of follow-up and action.”



                                           18
V. Statements to the Media Regarding the Information CREW
   Provided to the FBI

       In addition to reviewing the actions taken by the FBI in response to
the e-mails it received from CREW in July, we reviewed the FBI’s
statements to the media regarding its interactions with CREW. Because of
information that appeared in several media articles, CREW complained
that the FBI or the Department provided the media with false information
about CREW’s referral of the Foley e-mails. According to some media
reports, FBI or Department officials had stated to the media that CREW
had provided the FBI with “heavily redacted” e-mails. According to those
reports, the FBI asked CREW to go back to its source and ask for more
information so it could follow up but CREW refused, which is why the FBI
did nothing further at the time. Sloan alleged that these suggestions were
false.

       To examine this issue, we interviewed three public affairs specialists
for the FBI who had spoken to the media regarding the Foley e-mails after
they became public in September 2006. We also reviewed the media
reports regarding this issue. For example, an October 4, 2006, article on
the CBS News website stated:

              The Justice Department told CBS News that in July, when
              Citizens for Responsibility and Ethics in Washington (CREW)
              provided the “innocuous” e-mails to the FBI, they were heavily
              redacted. . .The Justice Department also said the FBI asked
              CREW to go back to its source and ask for more information
              so it could follow up, but CREW refused. That’s why the FBI,
              Justice said, did nothing further at the time.12

       Other news organizations carried similar statements attributed to
either Justice or FBI or law enforcement officials, such as an article in the
Washington Post on October 6, which stated:

              In subsequent days, unidentified Justice and FBI officials told
              reporters that the e-mails provided by CREW were heavily
              redacted and that the group refused to provide unedited
              versions to the FBI. One law enforcement official – speaking
              on the condition of anonymity to discuss an ongoing
              investigation – also told the Washington Post the FBI believed
              that CREW may have received the e-mails as early as April


       12  See Beverly Lumpkin, Foley Probe Not a Jefferson Replay, CBS News,
Oct. 4, 2006.



                                         19
             and that the group refused to tell the FBI how they were
             obtained.13

       We found that the statements attributed to the FBI and the
Department about CREW and the Foley e-mails were not accurate. First,
we found that the redactions in the e-mails, which the FBI learned soon
after receiving the e-mails from CREW were in place when CREW had
received copies of the e-mails, were not significant redactions. The only
redactions on the e-mails appeared to be the name or e-mail address of the
person or persons to whom someone had forwarded the e-mails. However,
no language in the body of the e-mails was redacted. Significantly, the
e-mails still contained the full names of the pages and the House employee
to whom the e-mails were sent. Moreover, as we described above, the
redactions in the e-mail did not factor into the FBI’s decision to decline to
investigate the matter.

       Second, we found that the FBI did not seek any additional
information from CREW, other than the one follow-up phone call the
Public Corruption Squad Special Agent made to Sloan after initially
receiving the e-mails. The Special Agent told the OIG that, although she is
not sure, she may have asked Sloan during that call to reveal who
provided the e-mails to Sloan and that Sloan declined. The Special Agent
remembered that she asked Sloan other questions which Sloan answered,
including whether the e-mails were from Foley, whether Sloan knew
anything about the redactions, and whether Sloan knew anything about
the House employee whose name was in the e-mails.

      However, Sloan said the Special Agent never asked her at any time
to reveal the source of the e-mails. Sloan told the OIG that the only
question the Special Agent asked during this phone call was whether the
e-mails were from Congressman Foley, to which Sloan said yes.

     Third, the e-mails were provided to CREW in July 2006, not April,
and CREW sent them to the FBI within days of receiving them.

      The OIG was unable to determine from the interviews it conducted
who was responsible for making these inaccurate statements to the media.
The three FBI media representatives we interviewed said they do not recall
making any of these statements to any reporter. However, we determined
that two of the three media representatives mistakenly believed, probably
based on incorrect information from the Public Corruption Special Agent,
that the FBI had sought additional information from CREW and that
CREW refused to provide it. This mistaken belief also was likely passed to

      13 See Dan Eggen, Watchdog Group Disputes FBI’s Claims on E-Mails, The
Washington Post, Oct. 6, 2006.


                                        20
other FBI spokespersons and Department spokespersons who discussed
the Foley e-mails with the media. Thus, we believe these
misunderstandings may have contributed to inaccurate information being
provided to the media.

      In addition, it appears that a misreading of the draft chronology of
events prepared by WFO contributed to the inaccurate perception that the
FBI requested additional information from CREW and CREW refused to
provide it. The draft chronology stated that the Special Agent who spoke
with Sloan had a “vague recollection of asking Ms. Sloan who she got the
emails from and Ms. Sloan did not want to reveal her source.” The draft
chronology also stated that the Cyber Crimes Squad SSA decided the
investigation was not warranted “especially in light of the fact Ms. Sloan,
CREW, refused to provide the identity of her source.” Whether or not
Sloan declined to reveal the source who gave her the e-mails, the e-mails
CREW provided contained the identity both of the former page who
received the e-mails and two other potential witnesses. Further, we
determined that this issue was not a factor in the FBI’s decision to decline
to investigate the matter, notwithstanding the suggestion in the draft
chronology.

      Finally, several news stories reported the inaccurate statement that
CREW had the e-mails since April. We do not know who may have
supplied the media with this inaccurate information.

      In sum, the OIG concluded that the information provided by the FBI
and the Department inaccurately portrayed the information that CREW
provided to the FBI, and inaccurately suggested that CREW’s actions were
the cause of the FBI’s decision not to investigate the e-mails. We believe
that the inaccuracies were caused by a misinterpretation of the description
of events that was disseminated within the FBI and the Department, both
verbally and through the written draft chronology of events, regarding the
FBI’s actions in response to the e-mails it received in July.




                                     21
APPENDIX
